<html>
<title> - REGULATORY REFORM TASK FORCE CHECK IN PART III</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
             REGULATORY REFORM TASK FORCE CHECK	IN PART III

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 THE INTERIOR, ENERGY, AND ENVIRONMENT

                                AND THE

                            SUBCOMMITTEE ON
                       INTERGOVERNMENTAL AFFAIRS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 29, 2017

                               __________

                           Serial No. 115-56

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                       
                       
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-503 PDF             WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna General Counsel
                        Christen Harsha, Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
          Subcommittee on the Interior, Energy and Environment

                   Blake Farenthold, Texas, Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin Islands
Dennis Ross, Florida                 Jamie Raskin, Maryland
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky                (Vacancy)
Greg Gianforte, Montana
                                 ------                                

               Subcommittee on Intergovernmental Affairs

                     Gary Palmer, Alabama, Chairman
Glenn Grothman, Wisconsin, Vice      Val Butler Demings, Florida, 
    Chair                                Ranking Minority Member
John J. Duncan, Jr., Tennessee       Mark DeSaulnier, California
Virginia Foxx, North Carolina        Matt Cartwright, Pennsylvania
Thomas Massie, Kentucky              Wm. Lacy Clay, Missouri
Mark Walker, North Carolina          (Vacancy)
Mark Sanford, South Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 29, 2017................................     1

                               WITNESSES

The Honorable David Bernhardt, Deputy Secretary, Department of 
  the Interior
    Oral Statement...............................................     6
    Written Statement............................................     9
Ms. Brittany Bolen, Deputy Associate Administrator, Office of 
  Policy, Environmental Protection Agency
    Oral Statement...............................................    13
    Written Statement............................................    15
Mr. Daniel Simmons, Principal Deputy Assistant Secretary, Office 
  of Energy Efficiency and Renewable Energy, Department of Energy
    Oral Statement...............................................    20
    Written Statement............................................    22

                                APPENDIX

Report titled, ``Alabama's Environment 2014: Six Critical 
  Indicators,'' submitted by Rep. Palmer.........................    42
Dr. Cliff Mass' blog submitted by Rep. Palmer....................    43
Follow up responses from Department of Energy to in-hearing 
  questions......................................................    44
Questions for the Record for The Honorable David Bernhardt, 
  submitted by Rep. DeSaulnier...................................    48
Questions for the Record for Ms. Brittany Bolen, submitted by 
  Rep. Demings                                                       51


             REGULATORY REFORM TASK FORCE CHECK-IN PART III

                              ----------                              


                      Wednesday, November 29, 2017

                  House of Representatives,
         Subcommittee on the Interior, Energy, and 
       Environment, joint with the Subcommittee on 
                         Intergovernmental Affairs,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the Subcommittee on the Interior, Energy, and 
Environment] presiding.
    Present from Subcommittee on the Interior, Energy, and 
Environment: Representatives Farenthold, Palmer, Gianforte, 
Plaskett, and Raskin.
    Present from Subcommittee on Intergovernmental Affairs: 
Representatives Palmer, Grothman, Duncan, Massie, Walker, 
Demings, DeSaulnier, and Clay.
    Mr. Farenthold. The Subcommittee on the Interior, Energy, 
and the Environment and the Subcommittee on Intergovernmental 
Affairs will now come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    I would now like to recognize myself for five minutes for 
an opening statement.
    Good morning. Today, we are going to continue our hearing 
series on the work of agency Regulatory Reform Task Forces, and 
we welcome representatives from the Department of the Interior, 
the Environmental Protection Agency, and the Department of 
Energy, to provide us with an update on their rollback of 
excessive, duplicative, and outdated regulations.
    Earlier this year, President Donald Trump issued Executive 
Orders 13771 and 13777 as part of a push to reduce the burdens 
that Federal regulators impose upon Americans. These executive 
orders required Federal agencies to repeal two regulations for 
every one new regulation they would like to impose. To help 
meet this requirement, the orders directed Federal agencies to 
establish a Regulatory Reform Task Force to review regulations 
and identify the ones that are unnecessary, impose excessive 
costs, or limit job growth.
    Over the last two months, the committee has heard from a 
number of agencies about the progress they have made on 
implementing these executive orders and their unprecedented 
efforts to take a fresh look at how our government regulates. 
My colleagues and I have been encouraged by what we have heard. 
For example, the Department of Education's task force uncovered 
a whopping 1,772 guidance documents, 600 of which were out of 
date or were interpreting laws that were no longer in effect. 
The Department of Agriculture reported that during its first 
round of review, its task force, composed almost entirely of 
career staff, identified over 275 regulatory and administrative 
recommendations to increase agency efficiency and reduce 
duplication.
    Agencies also testified how they have been able to reduce 
the cost and the burden of their regulations while not 
compromising important health and safety considerations. For 
example, the folks at the Department of Health and Human 
Services testified that they are fulfilling their mission to 
remove burdens on patient-provider relationships. HHS personnel 
are also reassessing healthcare quality measures to ensure a 
focus on safety.
    The Department of Transportation representatives testified 
that, as a result of their review, DOT is reducing unnecessary 
regulatory burdens and barriers to new technologies, and saving 
the American public significant time and money, while actually 
improving the safety and benefits of its regulations.
    This check on the massive regulatory state is long overdue. 
Our hardworking American taxpayers, landowners, small 
businesses, and individual consumers are counting on these 
agencies to get it right. As such, I am confident my colleagues 
will respect the value of these agencies' efforts and our 
witnesses' time, and please remain focused on helping the 
committee evaluate the work of these task forces.
    To our witnesses today, I look forward to hearing about 
what your task forces have accomplished and how your work will 
encourage a more productive relationship with the regulated 
community, facilitate safe utilization of our resources, and 
incorporate the voices of our States, localities, and tribes, 
and most importantly, save the American people time, money, and 
frustration, which concludes my opening remarks.
    Mr. Farenthold. I will now recognize the ranking member of 
the Subcommittee on Intergovernmental Affairs, Mrs. Demings, 
for five minutes for her opening statement.
    Mrs. Demings. Good morning, and thank you, Chairman 
Farenthold--and I also want to recognize Chairman Palmer--for 
convening this hearing today. I would also like to thank 
Ranking Member Plaskett, who has joined us this morning, and 
thank you to all of the witnesses for being with us.
    This is the third hearing our subcommittees have had on 
Regulatory Reform Task Forces, and I am pleased we have had an 
opportunity to review the actions of three agencies which play 
an important role in ensuring clean water and air, promoting 
renewable energy, and reducing greenhouse gas emissions.
    However, it is unfortunate that the agencies here today, 
the Environmental Protection Agency, the Department of Interior 
and Energy seem to be backing away from these responsibilities. 
I think it is important for us, Members of Congress, agency 
officials, and the public at large to remember the conditions 
that led a Republican President to create some of the very 
agencies before us today in the first place.
    There are stories from across the country--I know you know 
them well--of smog so thick the morning sun could not be seen 
and rivers that change colors depending on the dye used that 
day. Outside Tampa--I'm from Florida--Lake Thonotosassa had the 
largest fish kill in history, 26 million, because it was so 
polluted by discharges from four food processing plants. In my 
district, just a mile from the town of Zellwood, a 57-acre 
parcel of wetlands was used from 1963 to 1980 for a drum 
recycling company to store a deadly mixture of chemicals just a 
short walk away from communities that developed after World War 
II. The contamination is still being modified and remediated by 
Federal, State, and local agencies.
    Just as the men and women who served before us understood 
the importance of safe, clean water, air, and safe land, we, 
too, must see the risk to future generations from climate 
change and act now to avert catastrophe. Unfortunately, I fear 
that recent administration actions indicate an abdication of 
these responsibility.
    EPA, for example, has proposed repealing the Clean Power 
Plan, which provides States flexibility to limit carbon dioxide 
emissions. Without the Clean Power Plan, the United States will 
continue to release unsustainable levels of carbon dioxide into 
the atmosphere. Not only will repealing the Clean Power Plan 
negatively impact climate change, repealing it without 
replacing it with another plan to limit carbon dioxide will 
leave EPA in violation of the Clean Air Act.
    EPA is not alone in proposing rulemaking that will 
negatively impact climate change. The Department of Energy has 
called a so-called grid resiliency pricing rule, ostensibly to 
ensure that the power grid is resilient enough to meet demand 
that any disasters might befall it. The rule is in fact a 
giveaway to fossil-fuel-based power plants. By providing aid to 
power plants that maintain a 90-day onsite fuel supply, the 
proposed rule would grant a ratepayer subsidy to power plants 
which are not sustainable.
    The Department of Energy similarly has proposed climate 
change-impacting rules. The Bureau of Land Management within 
Interior has proposed delaying the Obama administration's 
methane waste rules. The rules require oil and gas companies to 
submit plans to cut waste, measure and report gas flared from 
wells, and dispose of gas that reaches the surface during 
drilling. Not only is this prudent management of our public 
lands, America should get our money's worth from the natural 
resources below ground, and we should ensure that nature is not 
left spoiled from drilling, but it also impacts climate change.
    The outcomes of the administration's actions are apparent 
and real, no matter how great some wish to deny their cause. 
Indeed, in Florida we have seen sea levels increasing so steep 
that coastal communities like Miami Beach are investing 
billions to stay above water.
    I am, however, grateful to the chairman for calling this 
hearing so we can further investigate the reasons behind 
administrative actions and the policy goals they serve and 
provide comment and insight on how agencies can more 
effectively serve the American people.
    I do look forward to the discussion, and thank you so much, 
Mr. Chairman. I yield back.
    Mr. Farenthold. Thank you very much.
    I will now recognize the chairman of the Intergovernmental 
Affairs Subcommittee, Mr. Palmer, for five minutes for his 
opening statement.
    Mr. Palmer. I thank the chairman and the ranking members 
for the subcommittees for participating in this hearing, and I 
thank the witnesses for being here.
    This Administration has seized upon a real opportunity to 
undo much of the damage our government has created through 
years of overregulation. Many of us have seen firsthand the 
consequences of excessive regulation by way of lost jobs and 
strained economic conditions and stifled growth in our 
districts and really in the entire American economy.
    There has been a major decline in business startups. In 
fact, the Gallop organization put out a report that said that 
prior to 2008, there were 100,000 more businesses starting up 
than were closing, but by 2014, there were 70,000 more 
businesses closing than starting up. And this was a period of 
unprecedented overregulation.
    My subcommittee has heard countless stories from States, 
local governments, and individuals about their inability to 
make decisions that are most important to them simply because 
their hands are tied by the cost or logjam or the uncertainty 
created by inconsistent and often contradictory Federal 
regulations. The issue has simply gotten out of hand. Even 
agencies themselves have testified they were ``amazed'' at the 
number of guidance documents, policy memos, and other 
regulatory documents that they maintain once they began their 
review.
    As the chairman noted, it has been encouraging to hear from 
agency representatives that they are working to end this 
practice of overregulation and start repairing the relationship 
that the government has with its people, beginning with the 
elimination of obsolete and duplicative and contradictory 
regulations.
    It is my understanding that tomorrow the full committee 
will be considering a bill by our colleague, Mark Meadows from 
North Carolina, which seeks to codify the administration's 
regulatory reform proposals. I look forward to that discussion.
    I appreciate the input our agency witnesses have provided 
in these hearings to show how these policies are yielding real 
results for the public by reducing not only the number of 
Federal regulations and guidance documents, but also the costs 
and burdens that Americans face every day, which amount to 
trillions of dollars every year. In fact, last year alone, 
regulations cost the average household almost $15,000, which, 
I'd like to point out, places a disproportionate burden on 
lower-income households, similar to what I grew up in.
    Agencies report that in just the first half of this year, 
their task forces have identified and withdrawn thousands of 
out-of-date, duplicative, burdensome, and costly regulations 
and policy documents.
    And I do want to comment--not to put any burden on our 
witnesses--the enthusiasm with which the people have come in 
and testified about what they are doing. This is not policy 
work, we are not asking you to legislate, and we commend you 
for what you are doing.
    We have a remarkable opportunity here before us to 
modernize and streamline the Federal Government's approach to 
regulation. Mr. Jitinder Kohli, who led the United Kingdom's 
one-in and two-out regulatory reform initiative, testified at 
our first hearing that this is ``fundamentally about culture 
change''--it really is--and ``changing the culture of 
government.'' I couldn't agree more. Getting our government to 
take a fresh look at look at how it operates and change its 
behavior is obviously no small task.
    And, again, I commend you for the enthusiasm with which you 
have taken on this task because I really believe that you are 
trying to do what is right for the American people, and I am 
excited about what you are doing.
    I look forward to hearing from each of our witnesses today 
on how their deregulatory efforts will have a lasting effect 
and how we can all work together to make the most of your 
progress and to do the most for the American people.
    With that, Mr. Chairman, I yield back.
    Mr. Farenthold. Thank you very much.
    I will now recognize the ranking member of the Interior, 
Energy, and Environment Subcommittee, Ms. Plaskett, for five 
minutes for her opening statement.
    Ms. Plaskett. Thank you so much, Mr. Chairman, and thank 
you all for being here this morning. Thank you, Chairman Palmer 
and Ranking Member Demings as well for holding this very 
important hearing.
    At President's Trump's direction, political appointees at 
Federal agencies are repealing regulations that protect the 
health, environment, and pocketbooks of average Americans. And 
worse, it would appear they're doing so under the cloak of 
darkness. This lack of transparency is very troubling and is 
depriving the American people of their right to participate in 
the rulemaking process.
    Let's take, for example, the Environmental Protection 
Agency. Administrator Scott Pruitt is not fully disclosing 
details about which protections he is planning to repeal and 
who is being consulted in that decision-making. This is 
especially concerning since it has been reported that members 
of the task force have previously had ties to corporations and 
corporate-sponsored organizations which have blocked efforts to 
clean up our air and water. Knowing if this is true or not 
would be very important to this body, as well as to the 
American public.
    At the Department of Interior and Department of Energy, 
Secretary Ryan Zinke and Secretary Rick Perry respectively are 
not fully open about membership on their task forces that 
President Trump is using to dismantle lifesaving regulations.
    Much is at stake. Americans just recently in Texas, 
Florida, Puerto Rico, and the U.S. Virgin Islands have all 
recently endured three major hurricanes in succession, and 
scientists unanimously believe that climate change contributed 
to their severity of those hurricanes. Just 10 days before 
Hurricane Harvey hit Texas, President Trump signed an executive 
order revoking regulations that, quote, ``would have required 
the Federal government to take into account the risk of 
flooding and sea level rise as a result of climate change when 
constructing new infrastructure and rebuilding after 
disaster.'' My constituents, the people in Puerto Rico, Texas, 
and Florida, and other areas which have suffered in the past 
from devastating hurricanes and will unfortunately continue to 
do so want our government to take into account climate change 
when building infrastructure. This would just appear to be a 
commonplace factor in the decision-making, and it will save 
lives. But it would appear that President Trump is rolling back 
this lifesaving protection and many others.
    I look forward to hearing this morning from the 
Environmental Protection Agency, Department of Energy, and the 
Department of Interior, and I hope they will be forthcoming 
about what protections they are targeting for repeal, which 
companies would benefit, what are the factual justifications 
for doing so, how those task forces are composed because the 
American people have a right to know what their government is 
doing.
    Thank you very much, Mr. Chairman.
    Mr. Farenthold. Thank you.
    At this point I am pleased to introduce our witnesses. From 
the Department of Interior we have the Honorable David 
Bernhardt, and he is the deputy secretary there at DOI. We have 
Ms. Brittany Bolen. She is the deputy associate administrator 
of the Office of Policy at the Environmental Protection Agency 
and a former intern on this committee. She will get to 
experience what it is like to be on the other side of the table 
today. And we have Mr. Daniel Simmons, the principal deputy 
assistant secretary of the Office of Energy Efficiency and 
Renewable Energy at the Department Of Energy. Welcome to you 
all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Would you please stand and raise your 
right hand?
    [Witnesses sworn.]
    Mr. Farenthold. Let the record reflect all witnesses 
answered in the affirmative, and you all may be seated.
    In order to allow time for discussion and questions, we are 
going to ask that you each limit your testimony to around five 
minutes. Your entire written statement will be made a part of 
the record. As a reminder, the clock in front of you shows your 
remaining time, and the light will turn yellow when you have 30 
seconds left and red when your time is up. Please also remember 
to turn on your microphones. We are budget-conscious here. We 
didn't buy the most expensive microphones, so you actually do 
need to bring them close to your mouth so we can all hear you 
very well.
    So we will start out with Mr. Bernhardt, you are recognized 
for five minutes, sir.

                       WITNESS STATEMENTS

                  STATEMENT OF DAVID BERNHARDT

    Mr. Bernhardt. Good morning. Thank you for inviting me to 
testify before you today regarding the Department of the 
Interior's progress in implementing President Trump's 
regulatory reform Executive Orders 13771 and 13777. I serve as 
the Deputy Secretary to the Department of the Interior, and in 
addition to my role as the Department's chief operating 
officer, I also serve as Interior's regulatory reform officer.
    At Interior, we are acutely aware that President Trump, 
even as a candidate, clearly communicated a vision of 
empowering the private sector, as well as State, local, and 
tribal governments by unleashing American exceptionalism and 
economic growth through reducing unnecessary and burdensome 
regulation, while maintaining environmental protection and 
public health. At Interior, we are also committed to ensuring 
that the regulation that is necessary to advance our 
conservation legacy remains in place.
    If you were to go back and look at the President's 
speeches, you would find that, during the campaign, he clearly 
articulated that certain regulations related to the Department 
of the Interior would be reviewed. In addition, as President, 
he has followed through with this--with those statements with 
clear direction in executive orders and presidential memoranda. 
We intend to ensure that we fulfill his campaign commitments 
and meet his direction to the extent the law provides us the 
authority to do so.
    In addition, we are leaning forward to ensure that we move 
with due pace while meeting our legal requirements. You will 
see this when you review the upcoming fall agenda. Frankly, our 
measurable progress and pace to date benefited greatly from the 
collaborative experience of working with Congress to enact 
legislation under the Congressional Review Act. The 
Congressional Review Act was applied to three Interior 
rulemakings. Congress' decision to utilize the review act was 
important. It avoided imposing needless burdens on the American 
public, while also freeing up the administration's time to 
address other important areas of focus.
    At Interior, we administer the activities that take place 
on 1/5 of all of the land of the United States, as well as the 
intercontinental shelf, along with certain regulatory programs 
Congress has entrusted to us that are not related to the lands 
that we marriage--manage. We know that the substance, the 
procedure, and the pace of our decision-making can have a 
significant impact on a wide variety of activities. President 
Trump has actively sought to establish an agenda focused on 
economic growth. Executive Orders 13771 and 13777 are keystones 
of his regulatory reform efforts.
    The Department's Regulatory Reform Task Force was formed on 
March 15, 2017. The task force meets monthly to evaluate 
existing regulations and provide recommendations to the 
Secretary regarding the repeal, replacement, or modification of 
such regulations. The task force focuses on regulations that 
place unnecessary burdens on the economy or the American 
people, that are outdated, ineffective, or unnecessary, are--or 
are incompatible with the regulatory reform principles or 
directions established in Orders 13771 and 13777.
    To facilitate the task force activities, we have invited 
public input to identify important areas of focus. We have 
received comments from a wide range of individuals and 
entities, including the environmental nonprofit community. 
Since we published a Federal Register notice asking for--the 
public for ideas to lessen the regulatory burdens, we have 
received approximately 215 comments. In addition, we have 
established a website to periodically provide information to 
the public on regulatory reform and encourage the public to 
share ideas on specific regulations that should be repealed, 
updated, or otherwise improved.
    So far, after a review of existing regulations planned for 
publication, we have removed approximately 154 regulatory 
actions from the spring agenda. This reduced our previous 
inventory of 321 actions by almost half. Interior reported 13 
deregulatory actions for fiscal year 2017 and 28 are planned 
for 2018.
    At the heart of our regulatory reform agenda lies the 
President and Secretary's recognition that the Department of 
the Interior has a responsibility to be a good neighbor to 
those we serve. This responsibility includes creating and 
implementing a regulatory framework that serves both our 
conservation and our multiple-use missions. We have been and we 
will continue to be relentless in our efforts to minimize 
regulatory and permitting uncertainty, but we will do so while 
maintaining our important environmental and safety standards.
    I look forward to answering any questions you might have. 
Thank you.
    [Prepared statement of Mr. Bernhardt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr. Farenthold. Thank you.
    Ms. Bolen, you are now recognized for five minutes.

                  STATEMENT OF BRITTANY BOLEN

    Ms. Bolen. Good morning, Chairmen Farenthold and Palmer, 
Ranking Members Plaskett and Demings, and members of the 
subcommittees. Thank you for holding this important hearing on 
agency implementation of the President's executive orders on 
regulatory reform. My name is Brittany Bolen, and I serve as 
deputy associate administrator for policy at the U.S. 
Environmental Protection Agency. I also serve on the EPA's 
Regulatory Reform Task Force. I'm grateful for the opportunity 
to testify on the work of the task force under the leadership 
of Administrator Scott Pruitt to engage in meaningful 
regulatory reform that advances the Agency's core mission of 
protecting human health and the environment.
    EPA's regulatory reform efforts over the last year have 
largely been driven by two executive orders, 13771 and 13777. 
In implementing these executive orders, EPA has emphasized 
three goals, which I would like to discuss today: transparency, 
public participation, and progress.
    First, EPA has enhanced the level of transparency for its 
regulatory reform work. As a first step, Administrator Pruitt 
issued an agency-wide memorandum listing the names of the task 
force members and providing an open account of the specific 
direction to the task force and EPA program offices to solicit 
public input and the process for evaluating existing 
regulations. Then, in April, EPA launched a new regulatory 
reform webpage to provide the public comprehensive information 
on the task force, these executive orders, and opportunities 
for public input. The Agency has periodically updated this 
website and is committed to continue to do so to keep the 
public well-informed of our actions.
    In regards to public participation, EPA has provided an 
unprecedented level in its regulatory reform work. Beginning in 
April, EPA offices invited more than 200,000 stakeholders to 
participate in 11 public meetings and teleconferences on 
regulatory reform. In order to provide an open and fair 
opportunity for all members of the public to provide input, EPA 
issued a Federal Register notice, opening a formal docket with 
a 30-day public comment period. In those 30 days, the EPA 
received a total of more than 460,000 public comments. While 
many of these comments were form letters, over 63,000 were 
unique individual comments which set an EPA record. These 
comments range from a few pages dedicated to one rule to dozens 
of pages providing detailed information regarding several 
rules.
    EPA is continuing to review and carefully analyze these 
comments, and any specific regulations that the Agency may 
review or may consider revising will indeed provide further 
opportunity for public comment in accordance with the 
Administrative Procedure Act.
    Underpinning all of this work is a commitment to achieving 
meaningful progress in air and water quality, land cleanup, and 
safe chemicals, while meeting the executive order deliverables 
to reduce unnecessary regulatory burdens on the American 
people. In accordance with Executive Order 13771, in fiscal 
year 2017 EPA rules imposed no new net costs, and we finalized 
at least two deregulatory actions for each regulatory action. 
EPA expects the same for fiscal year 2018, but further details 
regarding specific regulatory and deregulatory plans for fiscal 
year 2018 will be in the forthcoming unified agenda to be 
published by the Office of Management and Budget. As EPA moves 
forward with its regulatory reform efforts, the Agency will 
continue to update the public and Congress with our progress.
    Thank you again for this opportunity to testify on the work 
of EPA's Regulatory Reform Task Force. I appreciate the time I 
spent with bipartisan committee staff last month briefing them 
on the task force's work, and I look forward to answering your 
questions today.
    [Prepared statement of Ms. Bolen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mr. Farenthold. Thank you very much.
    Mr. Simmons, your five minutes starts now.

                 STATEMENT OF DANIEL R. SIMMONS

    Mr. Simmons. Thank you. Chairmen Farenthold, Palmer, 
Ranking Members Plaskett and Demings, and members of this--of 
the--of both subcommittees, thank you for the opportunity to 
testify today and for your interest in regulatory reform at the 
Department of Energy.
    DOE is committed to reducing unnecessary, unreasonable, 
duplicative, and outdated regulatory burdens on American 
families and businesses. We are also committed to clean air, 
clean water, and continuing to improve the environment.
    Earlier this year, the President issued several executive 
orders that have guided our regulatory reform efforts. The 
President issued Executive Order 13771, reducing regulatory--
reducing regulation and controlling regulatory costs; Executive 
Order 13777, enforcing a regulatory reform agenda; and 
Executive Order 13783, promoting energy independence and 
economic growth.
    Executive Order 13777 required the head of the--each head 
of each agency to designate an agency official as its 
regulatory reform officer and that a--the agency establish a 
Regulatory Reform Task Force. Following the directions in these 
orders, DOE formed a Regulatory Reform Task Force, and the DOE 
chief of staff was designated as the regulatory reform officer. 
The chief of staff delegated they regulatory reform officers to 
me, the principal deputy assistant secretary in the Office of 
Energy Efficiency and Renewable Energy.
    To inform the work of the Regulatory Reform Task Force, DOE 
published a request for information in the Federal Register on 
May 30 seeking comment from the public on DOE's regulations. 
DOE received 132 separate comments from businesses, trade 
associations, advocacy groups, and other interested 
stakeholders. DOE also established a dedicated email box, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="47152220322b263328353e691522312e2230070f166903080269202831">[email&#160;protected]</a>, through which interested parties 
can communicate their regulatory reform ideas to DOE on an 
ongoing basis. In addition, upon request, DOE has met with 
interested party seeking to provide comments on DOE's 
regulatory reform activities, and we will continue to do so.
    On October 24, Secretary Perry sent a report to the White 
House detailing the task force's findings in response to 
Executive Order 13783 on energy independence. That report was 
also published online. DOE's task force made the following 
recommendations: Number one, streamline LNG natural gas 
exports. Several commenters encouraged DOE to export--expedite 
the export of LNG. On September 1, DOE issued a proposed rule 
to provide faster approvals of small-scale natural gas exports, 
including LNG. The comment period for the proposed rule closed 
on October 16. DOE is currently reviewing the comments and 
plans to complete the rulemaking in the near future.
    Number two, review our policies with regard to the national 
labs. DOE is the steward of 17 national labs, and it is 
critical that the important research and development work that 
occurs at the national lab is less encumbered by bureaucracy 
and that more of the money goes to the actual research and 
development, to get to Congresswoman Demings' concerns about 
the environment. And we have identified several areas for 
reform that would permit the national laboratories to operate 
more efficiently, focusing more time and resources on their 
mission-critical work.
    Number three, review DOE's implementation of the National 
Environmental Policy Act, NEPA. DOE received several comments 
that called for streamlining and simplifying the agency's 
regulations and internal operations related to NEPA. The goal 
is to improve the effectiveness and efficiency of DOE's 
compliance with NEPA in reviewing and approving permits.
    And, number four, review DOE's appliance standards program. 
As required by statute, DOE implements minimum energy 
conservation standards and separate test procedures for more 
than 60 categories of appliances. The majority of the comments 
received from the public both in the request for information 
and in meetings concerned, number one, existing DOE energy 
conservation standards and test procedures; and two, the 
procedures DOE follows in issuing those regulations. Many 
commenters asked DOE to follow and review the so-called process 
rule. The process rule is a rule that describes the procedures, 
interpretations, and policies that guide DOE in establishing 
new or revised energy efficiency standards for consumer 
products.
    DOE will also consider voluntary nonregulatory and market-
based alternatives to standard-setting when supported by 
statute. To this end, yesterday, DOE published in the Federal 
Register a request for information seeking comment on potential 
market-based approaches such as those used to set average fuel 
economy standards for vehicles. Such approaches may reduce 
compliance costs and increase consumer choice while preserving 
or enhancing appliance efficiency.
    DOE will continue to work with the public on the regulatory 
reform process as we will work to achieve the President's goal 
of reducing burdens on Americans, families, and businesses at 
the same time we work to continue to protect the environment. 
As DOE identifies additional areas for reform, the Department 
will provide more opportunities for public participation 
consistent with DOE's commitment to an open, transparent, and 
accountable rulemaking process.
    I appreciate the opportunity to testify here today to 
explain DOE's efforts to achieve meaningful regulatory reform. 
I look forward to answering any questions. Thank you very much.
    [Prepared statement of Mr. Simmons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Farenthold. Thank you, Mr. Simmons.
    It is my normal policy to save my questions for last. 
Unfortunately, today, simultaneously with this hearing there is 
a Judiciary Committee markup, so at some point I may need to 
leave for a short period of time to vote, so I'm going to go 
ahead and ask my questions first in the event I do have to move 
over to the Judiciary Committee for a couple minutes. So I now 
recognize myself for five minutes.
    Ms. Plaskett. You usually play cleanup.
    Mr. Farenthold. I usually bat cleanup, I do. I may have to 
do a second round of questions if we have to clean up.
    All right. Mr. Simmons, in Secretary Perry's October 25 
report on regulatory reform under the heading of ``Streamlining 
Natural Gas Exports,'' and you have talked a little bit about 
you all working on that, the DOE must conduct a public-interest 
review I think is what it's called. Can you tell me the basis 
for this statement?
    Mr. Simmons. I cannot. I will happily get with the Office 
of Fossil Energy ----
    Mr. Farenthold. All right. Well, here is where I am going 
on this. As I read the Natural Gas Act, section 3A, the 
Department must issue an approval on application unless it 
affirmatively finds, based on evidence in the record, that 
exportation will not be consistent with the public interest. So 
what that means to me is unless evidence in the record shows 
the export is not in the public interest, the approval should 
be granted. Unfortunately, through the previous 
administration--the previous administration insisted on a 
public-interest review as a reason to delay projects I think. 
Since it isn't required or authorized by the act, shouldn't we 
get rid of this concept and apply the law as it is written?
    Mr. Simmons. We are--at DOE we are always in favor of 
applying the law so ----
    Mr. Farenthold. All right. Well, we have companies in Texas 
whose export authorizations have been delayed for years by what 
I consider to be this unauthorized and illegal policy. I do ask 
that you take it back to Secretary Perry and the folks at the 
DOE to consider modifying the report to make it consistent with 
the law, and rather than doing a public-interest review, 
granting it unless the record or information positively shows 
that it is not in the public interest.
    This committee, the full committee a couple years ago held 
a field hearing in Fargo on the oil and gas industry and 
Federal regulations affecting it. Some of the testimony at that 
hearing indicated that in a horizontal well drilling-- that is 
where they go down a mile or two and then they take a turn and 
go out a mile or two, that they could get a permit from the 
State in a month, maybe two. But if any part of that horizontal 
drilling went under any Federal property, whether that is a 
Federal highway or something, it could take the permitting 
process over a year. Has the Department of the Interior looked 
at this and other examples of the amount of time it takes to 
comply with regulations, as well as just whether the 
regulations are burdensome or unnecessary, Mr. Bernhardt?
    Mr. Bernhardt. Absolutely, Mr. Chairman. We are looking at 
things from the following perspective: what is in the law and 
regulation, what is in guidance, and what are our actual 
business practices in processing permits and NEPA documents, 
for example. And what we find is that there is a great deal of 
business process practices that probably can be reformed and 
shortened significantly primarily through what is called the 
surnaming process at the Department. People review--you know, 
you may have 40, 50 people review a single document before it 
goes to the Federal Register, and we're looking at that to make 
that process a more streamlined and efficient process itself.
    Mr. Farenthold. Mr. Simmons, is DOE looking at process, 
too, to get the stuff out faster, whether it's these LNG 
exports or other things you all are dealing with?
    Mr. Simmons. Without a doubt, and that is--with LNG exports 
in particular, we are very much concerned about streamlining 
that process so it doesn't take years but, you know, takes a 
more reasonable amount of time.
    Mr. Farenthold. All right. And then let me--Ms. Bolen, I 
don't want to ignore you, and I may get everybody else's input 
on this as well. A lot of your agencies employ folks from the 
private sector who have moved over into the industry. Some have 
said that this may create a conflict of interest when somebody 
who lobbied for or worked in the private sector affected by a 
regulation is in reviewing that regulation. Other people say, 
look, this provides valuable insight from stakeholders who are 
affected by these regulations. I am going to ask Ms. Bolen to 
start and the rest of the witnesses to just comment quickly on 
whether you see a conflict of interest there or whether you see 
value in having another perspective in their view of these 
regulations. Ms. Bolen?
    Ms. Bolen. Thank you. So just, first, I will say that all 
appointees at the Agency do receive ethics training through 
senior career ethics officers, and so I think that there would 
not be any conflict of interest as it's my understanding that 
they would be in compliance with their ethics obligations.
    In regards to their experience, certainly, I think that the 
Agency would have some value in getting the perspective of 
those that have been on the ground and have been working on 
implementing these regulations in real time.
    Mr. Farenthold. Thank you. Mr. Simmons, do you have 
anything to add?
    Mr. Simmons. Just to add that the Department of Energy 
takes our ethics--our ethical and our legal commitments very, 
very seriously and that we strive to meet them as well and that 
people--you know, one of the things that we hope to have is 
people with a wide variety of backgrounds and experience to be 
able to provide additional information into all the matters 
that we consider.
    Mr. Farenthold. Great. And, Mr. Bernhardt?
    Mr. Bernhardt. It's an interesting question as I look up 
and see the portraits of Abraham Lincoln, who was both a very 
successful lawyer and one of our greatest Presidents.
    The first thing I would say is that the Federal law and the 
Trump Administration have laid out requirements for ethical 
practices. We have a team of experts at the Department and a 
variety of analysis take place about whether something is a 
matter--a general matter, a particular matter of general 
applicability, or a specific matter affecting--a particular 
matter affecting specific parties. Depending on that type of 
issue, there are different regulations that apply, and 
guidelines need to be followed. Every PAS signs an ethical 
document laying out their requirements, and so we take this 
very seriously. We have training, we have guidance documents, 
and we have experts to ensure that we are held accountable.
    Mr. Farenthold. Thank you very much. I see I went a little 
over with the answers.
    I will now recognize Ms. Plaskett.
    Ms. Plaskett. Thank you very much.
    And let me start by saying that, Mr. Bernhardt, I see in 
your written testimony you have as the mandate--one of your 
mandates that President Trump has said that he has 
``communicated a vision of empowering the private sector, as 
well as State and local governments by unleashing American 
exceptionalism and economic growth through reducing unnecessary 
and burdensome regulations while maintaining environmental 
protection and public health.'' I have no problem with that 
statement, and I think the other members of this committee know 
that I may be one of the few Democrats who believe that we have 
maybe more regulations than are necessary. I have seen it in my 
own home in the Virgin Islands. The previous head of EPA was 
not really a friend of mine. I did not appreciate the 
maternalistic posturing that took place over the people of the 
Virgin Islands, who I believe knew better than she or the 
administration what environmental protections needed or did not 
need to be in place.
    However, that does need to be done legally and with 
transparency in that deregulation, and that is the concern that 
I have a committee member here, that I am not sure about the 
complete disclosure of the task forces that have been put in 
place for many of these agencies that are reviewing 
deregulation. I think that it is very important that the public 
know who is on the task force, the perspectives and 
backgrounds, while they may have followed conflicts, rules, and 
ethics laws in being there. How they may be swayed or may be 
influenced I think is very important for the public to be aware 
of.
    Ms. Bolen, the EPA put on its website on March 24 a memo 
that, among other things, provides the names of members of the 
Agency's Regulatory Reform Task Force. Why did the Agency 
decide to put the names online?
    Ms. Bolen. It was an agency-wide memorandum that the 
administrator signed and part of just transparency, good 
government, we posted it on our website to keep the public 
informed.
    Ms. Plaskett. And have you had any comments or thoughts 
from the public with regard to who the members of the task 
force are?
    Ms. Bolen. There--I'm not aware of any direct questions 
regarding the task force membership.
    Ms. Plaskett. Okay. Thank you. Last week, the full 
committee ranking member, Elijah Cummings, sent a letter to 
both the Energy Department and the Interior Departments 
requesting the names of the task force members. Mr. Bernhardt, 
the Interior Department has not to date responded to Mr. 
Cummings' inquiry, nor are the names of the task force members 
available publicly. Why has the Interior taken the position 
thus far, or do they intend to put the task force members' 
names available to the public?
    Mr. Bernhardt. It's--Representative, first, before I answer 
that question, I just want to say my heart goes out to your 
community. I was in the U.S. Virgin Islands two weeks ago 
looking at a variety of facilities as they relate to the 
Department of the Interior so ----
    Ms. Plaskett. Thank you. And the National Parks has been a 
tremendous partner in that recovery. Many of the rangers acted 
as first responders immediately after the hurricane and 
particularly on the island of St. John really came to the 
support of the people, and we are really grateful for that.
    Mr. Bernhardt. I spent a lot of time with those folks a 
couple weeks ago and also in terms of continuing rehab and 
ensuring that we had some facilities open.
    Ms. Plaskett. Thank you.
    Mr. Bernhardt. So let me say this. It's my understanding 
that we have made our--the names of the task force available. I 
can't speak to the letter specifically, but I'm happy to 
provide you the names, and I'm happy to do that right now to 
the best of my recollection.
    Ms. Plaskett. If you could put that in writing to us. And 
you said you had made the names available. Where are they 
available ----
    Mr. Bernhardt. Well, I know that they've been made 
available to people who've asked, reporters and others. I'm not 
sure if they're online, but I know that the--from my 
perspective, they're certainly publicly available ----
    Ms. Plaskett. Is there a reason why the task force 
composition is not online or available ----
    Mr. Bernhardt. Well ----
    Ms. Plaskett.--to the public?
    Mr. Bernhardt. Probably not. I think from my perspective 
the task force membership is likely to change as we get 
assistant secretaries and others in place, and the Senate has 
been relatively slow at providing those people. But we're 
certainly happy to make it available, and I'll certainly 
evaluate whether it ought to be on the web.
    Ms. Plaskett. Okay. Thank you. And the Energy Department as 
well, sir, Mr. Simmons, would you be able to provide those 
names to Mr. Cummings and to the committee? And is there a 
reason why those names are not public?
    Mr. Simmons. I believe we've already done both ----
    Ms. Plaskett. Okay.
    Mr. Simmons.--as in we did have a phone call with committee 
staff a couple days ago where we shared those names, number 
one. Number two, I don't know if it's posted on our website, 
but it has been the subject of FOIA, which I think was--has 
been released publicly, but we will--we'll make sure those 
names are public.
    Ms. Plaskett. You will make sure?
    Mr. Simmons. Yes.
    Ms. Plaskett. I don't know if you shared that with the full 
committee staff or the majority, but just--and thank you very 
much. I just think it is important that in the process of the 
review that the task force is making not only that the names of 
the members are there but the process in which regulations they 
are reviewing are there for public comment as well. Thank you 
so much.
    Mr. Farenthold. Thank you. I will now recognize Mr. Palmer 
for his questions.
    Mr. Palmer. Thank you, Mr. Chairman. Sometimes I feel like 
I am back on the Science, Space, and Technology Committee 
again. My background, I worked for 25 years for a think tank. I 
helped set a national network of State-based think tanks, but 
prior to that, I worked for two international engineering 
companies, one of which was in environmental systems, so I am 
acutely aware of the regulatory burden imposed on the American 
economy but also the importance of good regulations, sensible 
regulations. We have done a tremendous job of cleaning up the 
air and the water and the land in the United States.
    When I was still with the think tank, we published an 
annual--every two years, it may have been every four years-- a 
report on the progress that has been made. And I, Mr. Chairman, 
would like to enter the report into the record. It's entitled 
``Alabama's Environment 2014: Six Critical Indicators.'' But it 
has data from the EPA and Federal agencies that reflect the 
progress for the entire country.
    The thing that I want to point out ----
    Mr. Farenthold. Without objection, so ordered.
    Mr. Palmer. Thank you, Mr. Chairman--is that from 1980 to 
2012 we saw a 462 percent increase in gross domestic product, 
but during that same--we also saw a 93 percent increase in 
vehicle miles traveled, a 38 percent increase in population 
growth, 22 percent increase in energy consumption, but a 56 
percent decrease in emissions. So I do commend the EPA and 
other Federal agencies for the work that they have done in that 
regard, but that doesn't mitigate at all the need to clean up 
the regulatory environment so to speak, to get rid of the 
obsolete, the out-of-date, the duplications, the contradictions 
so that we regulate effectively and appropriately. So I 
appreciate that.
    There was also a comment made about climate change in 
regard to hurricanes. We went through a 12-year drought of 
hurricanes. It was the lowest number of--the lowest hurricane 
activity on record until this past year.
    And I would also like to enter into the record a blog from 
Dr. Cliff Mass--he's University of Washington atmospheric 
scientist--in regard to hurricane activity.
    Mr. Farenthold. Without objection, it will be entered into 
the record.
    Mr. Palmer. Thank you, sir.
    With that said, again, as I said in my opening comments, I 
am very appreciative of the work that you are doing. I realize 
it is not policy work. It is more like an EPA cleanup effort. 
Have you received any pushback, serious pushback from career 
staff at your agencies? And we will begin with you, Mr. 
Bernhardt, at Department of Interior.
    Mr. Bernhardt. I think that I would say that our folks have 
worked very ----
    Mr. Palmer. Can you speak into the microphone? Thanks.
    Mr. Bernhardt. Our folks have worked very collaboratively 
with us, sir.
    Mr. Palmer. How about you, Ms. Bolen?
    Ms. Bolen. Career staff have provided valuable expertise 
and collaboration with us throughout the regulatory reform 
work, and I've not personally received any pushback.
    Mr. Palmer. How about you, Mr. Simmons?
    Mr. Simmons. And I would also echo that, that the majority 
of the members of the Regulatory Reform Task Force are career, 
and they provide us with indispensable information as we move 
forward with regulatory reform.
    Mr. Palmer. Would you also say that, by going through this 
process, that it makes the career staff, it makes all of you 
more effective in carrying out the responsibilities that you 
have in the regulatory sphere? And I will reverse order. I will 
start with Mr. Simmons.
    Mr. Simmons. Oh, without a doubt. The vast majority of the 
work that the Regulatory Reform Task Force has been working on 
is our relations with the national labs, the--you know, 
Congress appropriates billions of dollars a year that go to the 
national labs, and so we want to make sure that the--that that 
process is as--you know, strip out as much bureaucracy as we 
can, but also, the people that have to deal with that on a day-
to-day basis and will deal with it in 4 years and 8 years and 
16 years, those are all career staff. So they very much want 
the best process possible, and that's why--that their--
especially in that area that their input has been so valuable 
to us.
    Mr. Palmer. Ms. Bolen?
    Ms. Bolen. Certainly. So at the EPA retrospective review of 
existing regulations is not new. There was a prior effort under 
the previous administration to conduct retrospective review, 
and the EPA, some of our environmental statutes require 
periodic reviews and potential revisions, so this is part of 
what the agency does on a regular basis.
    Mr. Palmer. Mr. Bernhardt?
    Mr. Bernhardt. I think since the establishment of the Civil 
Service Reform Act of 1978 ----
    Mr. Palmer. Could you lean into the microphone?
    Mr. Bernhardt.--the establishment of the SES Corps, they 
are--they understand clearly that administrations come and 
change policy perspectives and that that represents the will of 
the people, and they're prepared to work with everybody. That's 
generally my experience.
    Mr. Palmer. Well, my final point on this--and I realize I 
am over time, Mr. Chairman--is that the point of this exercise 
is to bring clarity to the regulatory process, which not only 
benefits the American economy and the American people, as I 
said in my opening comments, it is costing the average 
household $15,000 a year--it enables those who are responsible 
for implementing the regulations not only at the Federal level 
but at the State and local level to be able to do their job 
effectively with the least negative impact on families and 
businesses.
    With that, Mr. Chairman, I yield back.
    Mr. Farenthold. Thank you very much.
    I will now recognize Mrs. Demings from Florida for five 
minutes.
    Mrs. Demings. Thank you so much again, Mr. Chairman, and 
thank you to our witnesses.
    There is no doubt we want to get this right, and I am so 
glad that we have spent quite a bit time talking about 
transparency. It is important. The public's input, the public's 
right to know is very, very critical to the overall process of 
getting things right.
    But it appears to me under the current administration 
science-based policies are being repealed and replaced with 
politics-based policies. We would hope that would not be the 
case under any administration, but it certainly appears that 
way to me.
    Ms. Bolen, how many members of the Regulatory Reform Task 
Force previously worked for companies regulated by the EPA?
    Ms. Bolen. I do not have personal knowledge of the detailed 
backgrounds of all the members of the Regulatory Reform Task 
Force, though a majority were previous Capitol Hill staff.
    Mrs. Demings. So you don't know of anyone who works for a 
company or an agency that was regulated by the EPA that is 
currently a member of the task force?
    Ms. Bolen. To my knowledge, the members of the task force 
had not been employed by any members of the regulated 
community.
    Mrs. Demings. Okay. How many political appointees appointed 
by Administrator Pruitt specifically worked for oil or chemical 
companies or their lobby groups? Do you know that answer?
    Ms. Bolen. I do not have personal knowledge of all the 
political appointees' backgrounds.
    Mrs. Demings. Could you talk a little bit in general about 
the backgrounds of persons that would be selected to serve on a 
task force to decide which regulations will remain or which 
regulations would be repealed?
    Ms. Bolen. Um-hum. Certainly. The members of the task 
force, I have full confidence in all of the qualifications of 
the members of the task force, given their experience on 
environmental and regulatory policy issues.
    Mrs. Demings. But you don't know of one who worked for a 
company or an organization that was regulated by the EPA?
    Ms. Bolen. The EPA task force is comprised of four senior 
staff members, and no, to my knowledge, none of the four has 
specifically been employed directly by a company that the 
Agency regulates.
    Mrs. Demings. Do you know whether Administrator Pruitt 
hired a former official with the American Petroleum Institute?
    Ms. Bolen. I'm ----
    Mrs. Demings. Erik Baptist?
    Ms. Bolen. Yes, I'm familiar with Mr. Baptist.
    Mrs. Demings. A former official with BP Troy Lyons?
    Ms. Bolen. Yes.
    Mrs. Demings. A former employee with Koch Companies, 
Madeline Morris?
    Ms. Bolen. Congresswoman, the members that you--the last 
three that you just mentioned ----
    Mrs. Demings. Is that ----
    Ms. Bolen.--are not on the task force.
    Mrs. Demings. Is Madeline Morris a member of the task 
force?
    Ms. Bolen. They are not members of the task force, no.
    Mrs. Demings. What is their current position, please?
    Ms. Bolen. Ms. Morris is no longer with the Agency.
    Mrs. Demings. Okay. What was her position? Do you remember?
    Ms. Bolen. To the best of my recollection it was executive 
assistant. But, Congresswoman, I'm happy to follow up through 
the proper channels with additional information that you have 
regarding political appointees at the EPA.
    Mrs. Demings. Okay. That would be great. And thank you so 
much for taking the lead in your organization for making--in 
your agency for making sure that task force members' names were 
included up front on your website.
    And with that, thank you, Mr. Chairman. I yield back.
    Mr. Farenthold. Thank you very much. I will now recognize 
Mr. Duncan for five minutes.
    Mr. Duncan. Well, thank you very much, Mr. Chairman.
    Mr. Bernhardt, my understanding is is that you say your 
department has taken 15 deregulatory actions and you have got 
28 more under review or ----
    Mr. Bernhardt. Yes, I think it's 13 and 28, but yes, you're 
absolutely right.
    Mr. Duncan. Okay. And would you give me an example of one 
of those that you have taken action on?
    Mr. Bernhardt. Sure. And it's--I think it's important to 
recognize that taking action, particularly for Interior, the 
President was very clear in his--in certain executive orders, 
particularly those relating to energy, of some--of regulations 
that he wanted us to look at. And so we did that. And, you 
know, the process is not ultimately the task force's process. 
It's the process enshrined in law to review and modify 
regulations, which is through the Administrative Procedure Act. 
And that process itself is a very public process, so, for 
example, regulations related to hydraulic fracturing on Federal 
land, regulations regarding methane, those would be two 
specific ones where, after the task force reviewed them, they 
went through a--they began going through a public process under 
the Administrative Procedures Act.
    Mr. Duncan. I have an article from one of the Washington 
newspapers here from a few months ago, and it says that the 
Obama administration issued final regulations in this last year 
alone that cost $164 billion. Is it one of your goals in this 
deregulatory effort to result in cost savings to taxpayers and 
businesses?
    Mr. Bernhardt. Right. So at least from our perspective, the 
baseline is a zero increase on burden, and we're hoping to 
actually have the economic burden be a net decrease, so that's 
our ultimate goal.
    Mr. Duncan. All right. Ms. Bolen, I heard you say that you 
have gotten 460,000 comments and 63--but most of them have been 
form letters, but 63,000 have been individual comments. Is that 
correct?
    Ms. Bolen. That is correct.
    Mr. Duncan. And you are going through all those. Has the 
EPA taken any deregulatory actions yet?
    Ms. Bolen. Yes. We have several proposed deregulatory 
actions.
    Mr. Duncan. Several proposed?
    Ms. Bolen. And we--and for fiscal year 2017 we were able to 
finalize a number of deregulatory actions as well.
    Mr. Duncan. All right. And would you give me an example of 
one of those?
    Ms. Bolen. Certain. So for proposed deregulatory actions, 
we have a proposed repeal of the 2015 Waters of the United 
States rule. In terms of a final deregulatory action, we 
withdrew an information collection request for methane emission 
information from the oil and gas sector in March, and that 
information collection request is a deregulatory action under 
Executive Order 13771. And that is--that information collection 
request alone was estimated by the Agency to provide upwards of 
over $30 million in cost savings.
    Mr. Duncan. All right. Thank you very much.
    Mr. Simmons, what about your department? Have you taken any 
deregulatory actions as of yet?
    Mr. Simmons. We've--we have not--the only deregulatory 
actions that we have finalized are not regulations per se, but 
as our--as we work with the labs, we've taken some final 
actions there. Otherwise, just yesterday, we published in the 
Federal Register a request for information on market-based 
reforms, as I mentioned in my testimony, to possible changes 
that we could make to the Appliance Standards Program. That was 
yesterday. Just today, this morning, we sent a request for 
information about how we could improve the process rule, and 
that should be published in the Federal Register in the next 
couple days, as well as we have put out a proposed rule to 
streamline small-scale natural gas exports, and we should be 
finalizing that in, you know--in the not-too-distant future. I 
don't know the timeline but in the not-too-distant future.
    Mr. Duncan. All right. Thank you very much. I apologize. I 
had to go briefly to another hearing. I didn't get to hear your 
testimony, but, Mr. Chairman, thank you very much.
    Mr. Farenthold. Thank you. I now recognize the gentleman 
from California for five minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman, and thank you and 
all those involved in this hearing. I wish this was purely 
bipartisan. I know there to be some arguments, but I think 
getting regulations for the general public right, and that 
includes the business community.
    So, Mr. Bernhardt, representing northern California and the 
California Delta, you have had a long relationship in this 
regard. For my colleagues, Mark Twain once famously said about 
water in California, that whiskey was for drinking in 
California, but water was for fighting over. So, Mr. Bernhardt, 
this is in the context much like my friend and colleague from 
Florida. The regulation is important, but who is enforcing it 
is important, and whether there is a conflict of interest. So 
you have been in the Department and the Bush administration. 
You have been a lobbyist with clients who have an interest in 
this field.
    When you were confirmed, you, quote/unquote, said that you 
``wouldn't act on any issues in regards to conflicts unless you 
were first authorized to participate,'' quote/unquote. You have 
had two former clients who have been in the news in California 
who seem to have crossed that bridge at least from my 
perspective. Caddis Inc. is now allowed to pump groundwater in 
southern California since you rejoined this administration, and 
that was a change in policy from the Obama administration. And 
then Westlands Water District has been involved in a subsidy 
that has been brought to us by the IG in the Delta tunnels 
planning process.
    So my question for you is have you sought or received any 
waivers to work on these matters or any other matters when it 
comes to California water?
    Mr. Bernhardt. My ethics recusal is very clear that I will 
not participate personally or substantially in any particular 
matter involving specific parties in which I know a former 
employer or client of mine is a party or represents a party.
    Mr. DeSaulnier. So you're not involved right now in any 
policy ----
    Mr. Bernhardt. That is ----
    Mr. DeSaulnier.--in this regard?
    Mr. Bernhardt. I'm sorry. I did not hear you, but let me 
finish ----
    Mr. DeSaulnier. Okay.
    Mr. Bernhardt.--addressing your first question. I've had no 
role in any particular matter regarding either of these--any 
particular matter involving specific parties involving either 
of these two clients, and I've not sought a waiver in such 
instance.
    Mr. DeSaulnier. So just on the issue of perception, 
perception being important, obviously, you have put some 
thought into this. How would you deal with the general public 
in California that would say here is somebody who has worked in 
the administration who has gone outside the so-called revolving 
door? It seems to me that you are trying to establish a bright 
line, but perception-wise, you have made many outside that 
might say you know more about it. But is this sufficient given 
the role you have in people who are working underneath you or 
carrying out this policy, knowing that you have had a 
relationship and may in the future have a relationship with 
these clients?
    Mr. Bernhardt. Well, let's be very clear. I think I've put 
in place the most robust process ever devised by a deputy 
secretary, and let me tell you, we have specific recusals. We 
require specific guidance. I have had training sessions, and I 
consult regularly with the experts. Every request for a meeting 
by me is run through--not by me but for a meeting with me is 
run through ethics experts, so we have put in place a very 
robust process. And, you know, I can't speak necessarily to 
what others may say, but at the end of the day, I know that 
this is a far more robust process than was ever in place when 
other folks from large law firms have joined entities like the 
Department of the Interior, and I will stand behind them.
    Mr. DeSaulnier. Could you be more specific as to those 
other situations?
    Mr. Bernhardt. Sure. Go look at David Hayes, the deputy 
secretary who came from Latham Watkins. Go look at Janice 
Schneider. Those will be two from the prior administration. I 
could give you a long list. And in regards to policy matters, I 
think you'd find that their client list looked very similar to 
mine before they went into the Department of the Interior.
    Mr. DeSaulnier. And when the time comes for you to reenter 
the private sector, is it your intention to go back to your 
former law firm?
    Mr. Bernhardt. I have no intention to do that. You know, 
life leads the way it does, but certainly, when I left my law 
firm, I gave up my interest, and I don't have a relationship 
with my law firm in any sort of way. And the future will hold 
what the future does.
    Mr. DeSaulnier. Okay. I appreciate those comments. You can 
certainly appreciate from my perspective and my constituents' 
the perception that may be subjective, given their desire to 
protect the environment, where they live, they are impacted 
by--certainly the perception is different. With that, I ----
    Mr. Bernhardt. And I also think that ----
    Mr. DeSaulnier.--yield back the balance of my time.
    Mr. Bernhardt.--part of that perception is based on people 
not understanding the actual rules.
    Mr. DeSaulnier. It is all based on perception. And with 
that, I would be happy to yield back the balance of my time.
    Mr. Farenthold. Thank you very much. We will now recognize 
the gentleman from Montana for five minutes.
    Mr. Gianforte. Thank you, Mr. Chairman. And to the 
committee, thank you for being here for this important work.
    I appreciate the President's order to identify overly 
burdensome, costly, and outdated regulations for repeal or 
revision, as well as the administration's desire for two rules 
to be repealed for every one that is added. One of the reasons 
I came to Washington was to make it easier for job creators 
back in Montana.
    Mr. Bernhardt, you have a huge job covering all the 
entities at Interior from the National Park Service, the Office 
of Surface Mining and Reclamation, and the enforcement, and the 
Bureau of Indian Affairs. The Bureau of Land Management 
controls just over 8 million acres in the State of Montana. The 
National Park Service and U.S. Fish and Wildlife Service each 
control another 1 million acres, so over 10 million acres in 
total. As part of this Regulatory Reform Act, how did you work 
with local and State organizations to collect input on what 
regulations to focus on? And if you could share some of the 
successes you have had.
    Mr. Bernhardt. So we've received comments from States. 
We've received comments from associations like the Western 
Governors' Association. We've received comments from 
localities, some of which have very specific problems, and some 
of which have more broader concerns. And what we do in our 
meetings is we take the comments that we've received between 
the last meeting and that one, and we go through them and we 
say, ``Hey, this has merit; let's have the Bureau do some 
research on that.'' And so that is the way--it's a very--it's a 
process that anybody can take advantage of, and many have.
    Mr. Gianforte. Okay. Great. And I just applaud you for that 
work so far, and I encourage you to continue it.
    We have heard some concerns at these hearings about 
previous employment of staff assisting with this regulatory 
reform across the agencies. As a business guy, it is kind of 
puzzling to me why an agency assembling staff would not 
consider people with prior experience in the area they are 
going to be working. That seems to be portrayed as some kind of 
novel approach. In fact, it has been a practice that has been 
followed in prior administrations.
    For example, when not serving as the EPA's senior policy 
advisor to the administrator under President Obama or deputy 
administrator for President Clinton's administration, Bob 
Sussman headed the environmental practice at a large D.C. law 
firm to advise and advocate for companies and trade 
associations.
    In the previous administration, Cameron Davis, a senior 
advisor to the EPA administrator, provided counsel on the Great 
Lakes policy and coordinated funding initiatives. His previous 
occupation was president and chief executive officer of the 
Alliance for the Great Lakes.
    David McIntosh at the previous administration's EPA had 
also worked as a Clean Air Act litigator and regulatory lawyer 
at the National Resources Defense Council. In fact, that 
organization is well represented in that administration.
    The Department of Interior's Ned Farquhar served as the 
National Resources Defense Council as an energy and climate 
advocate prior to being named deputy assistant secretary for 
Lands and Minerals Management.
    Before Janice Schneider appeared before this very committee 
on behalf of the Department of Interior to defend its proposed 
Stream Protection Rule in 2015, she co-chaired a large law 
firm's energy and infrastructure project siting and defense 
practice.
    Also, in 2015, Mark McCall was appointed executive director 
of the Department of Energy's Loans Program. And this list goes 
on and on. Clearly, agencies have considered prior experience 
and hired people with expertise.
    So my question, after that long list of prior 
administrations, is it appropriate for agencies to select 
people who have experience to do the jobs they are being hired 
for? And each one of you, if you could answer.
    Mr. Bernhardt. Absolutely, provided they follow the 
regulations and the ethical requirements that have been 
established by law.
    Mr. Gianforte. Ms. Bolen?
    Ms. Bolen. I agree with that statement.
    Mr. Gianforte. And Mr. Simmons?
    Mr. Simmons. Agreed. Prior experience is incredibly 
important, as Mr. Bernhardt said, as long as we meet our 
ethical, legal--and legal obligations.
    Mr. Gianforte. And I would just--you have been very clear 
that that was a requirement in all cases, that, as you had 
said, Mr. Bernhardt, you had separated yourself, as we do in 
our positions, from prior engagements so that we can serve the 
people of America. And you have done that in your agencies, and 
I applaud you for hiring talented, qualified people to fill 
these positions. And I thank you for your testimony today.
    With that, I yield back, Mr. Chairman.
    Mr. Farenthold. Thank you very much. And I would like to 
thank our witnesses for appearing before us today.
    Oh, did we miss Mr. Grothman? Sorry about that.
    Mr. Grothman. That is okay.
    Mr. Farenthold. You disappeared, and you are back. Welcome 
back.
    Mr. Grothman. I was hanging out in the Education Committee, 
but I wouldn't miss this for the world.
    Mr. Farenthold. All right. I apologize. You're recognized 
for five minutes, sir.
    Mr. Grothman. Okay. I want to follow up a little bit again 
as far as the background of people you hire, and a lot of my 
experience actually came at the State level, but I always felt 
it was a big mistake to hire people in regulatory agencies 
straight out of college or academics because they really didn't 
understand how burdensome those regulations are. Are any of you 
and your agencies hiring people straight out of university or 
people whose only experience has been in the world of academia, 
or are you restricting yourselves hopefully to people who have 
experience with the businesses that are going to be regulated?
    Mr. Simmons. I--well, I'll start by answering that. For the 
broad swath of hiring across DOE, we--you know, we meet our 
human capital requirements and, you know, we look to hire the 
best people for the appropriate job. For these entry-level 
positions, we definitely would like to have people right out of 
college because, I mean, that's what those positions are, to 
give people experience. For more senior-level positions, you 
definitely want people with various types of experience to 
provide that necessary information. So it all depends on the 
position for the--for hiring.
    Mr. Grothman. Yes?
    Ms. Bolen. So certainly, the Agency does have fellowship 
programs with recent graduates, but just generally speaking, 
the--I'm aware that the political staff I think has a broad 
scope in their background and qualifications and levels of 
expertise that they can offer, but I couldn't speak to the 
Agency as a whole's hiring practices.
    Mr. Grothman. Okay.
    Mr. Bernhardt. We have approximately 70,000 employees. We 
hire all sorts of folks. Obviously, at a policy level, at a 
senior level, what we see in folks tend to be people that have 
experience in State or local government, people that have 
experience in regulatory paradigms that are complicated, or 
people that have science backgrounds that are relevant to their 
mission.
    Mr. Grothman. I am a little bit concerned, and I would like 
you to comment on this because, having dealt with regulatory 
agencies, sometimes somebody who has never worked outside of 
government--and that is fine--but they don't understand how 
burdensome a new regulation can be or, you know, you may change 
a regulation from three years ago you thought you were 
complying, now you are not, that sort of thing.
    I am a little bit concerned with--you know, and I realize 
not your entire functions are regulatory. You know, I mean, if 
you are hiring somebody for the parks or something, that is one 
thing, but if it is a regulatory agency that affects how 
somebody else is doing business or their property, I think it 
is important to hire somebody who has been on the other side 
first.
    And I wondered if you would ever consider, you know, maybe 
putting an administrative rule, putting in requirements that 
people who work for the regulatory part of your agencies have 
to have three or four years' experience first so they 
understand how it looks when a new wave of paperwork is thrown 
at you or you have to spend perhaps millions of dollars on 
something when two years ago you were in compliance. Would any 
of you comment on maybe if you would ever even have the ability 
to maybe put some administrative rule in effect so you greatly 
increase the chance that you will be hiring people who have 
experience other than just college-related ----
    Mr. Bernhardt. So ----
    Mr. Grothman.--if they are interacting with private 
individuals?
    Mr. Bernhardt. Yes, I don't--I've never thought about the 
rulemaking, but I will give you a similar example, and that is 
at times I think the folks that we have in our headquarters, 
even if they're regulatory people, they don't necessarily know 
what folks are actually doing on the ground and the challenges 
that our field offices are facing. And I've seen this and, you 
know, one of the things we're looking at is ensuring that the 
people that are making regulatory policy decisions actually 
know what the on-the-ground effects are even within the local 
regulators because I think their perspective tends to be a 
little different because they are there experiencing these 
things as well. Your idea is an interesting one. We'd have to 
talk to our lawyers about that.
    Mr. Grothman. Okay. Ms. Bolen?
    Ms. Bolen. I would have to take back your suggestion, but I 
will offer that the Office of Policy, the office in which I 
serve, does have a program that we've relaunched that was first 
initiated under the Clinton administration known as Common 
Sense, and now we have rebranded it to Smart Sectors, which is 
an opportunity for the Agency to develop partnerships with the 
regulated community and to provide a means for career staff to 
get on-the-ground tours and site visits and to better 
understand the regulated community. And this is just a 
partnership that we relaunched several months ago that was 
something past administrations have done to try to bridge the 
gap between career staff and the regulated entities.
    Mr. Grothman. Right. One way to make sure that the staff 
always understands the regulated community is to make sure you 
hire them from the regulated community, but thank you.
    Mr. Farenthold. Thank you very much. Just checking to make 
sure nobody else walked in.
    All right. With that, I will thank our witnesses again for 
being here. It was great hearing from you, great hearing about 
the wonderful work that you all are doing to reduce our 
regulatory environment.
    We are going to hold the record open for two weeks for any 
member to submit a written opening statement or questions for 
the record. And if you guys would be so kind as to reply to any 
of those we get, it would be greatly appreciated.
    If there being no further business, without objection, the 
subcommittees stand adjourned.
    [Whereupon, at 11:25 a.m., the subcommittees were 
adjourned.]


                           APPENDIX

                          ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Dr. Cliff Mass' blog can be found at: http://
cliffmass.blogspot.com/2017/08/global-warming-and-hurricane-
harvey.html.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
